TN

@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B a iefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1108
DERAY MCKESSON,
Petitioner,
Vv.
JOHN DOE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
RUTHERFORD INSTITUTE AS AMICUS CURIAE SUPPORTING PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5985 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 9th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Konee. Q. thes Oudra-h. hh

 

   

’ E GENERAL ROTARY-State of Wsbrasia
RENEE J. GOSS
; iy Comin. Exp. September 8, 2025

Notary Public Affiant

39625"
